U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Outdoor Amusement Bus. Ass’n v. Department of Homeland Sec., No. 21-80
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 16, 2021.
The government’s response is now due, after one extension, on September 20, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including September 29, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-0080
OUTDOOR AMUSEMENT BUSINESS
ASSOCIATION, INC., ET AL.
DEPARTMENT OF HOMELAND SECURITY, ET AL.

R. WAYNE PIERCE
THE PIERCE LAW FIRM, LLC
133 DEFENSE HWY.
SUITE 201
ANNAPOLIS, MD 21401
410-573-9955
WPIERCE@ADVENTURELAW.COM
LEON R. SEQUEIRA
616 SOUTH ADAMS STREET
ARLINGTON, VA 22204
202-255-9023
LSEQUEIRA@LRS-LAW.COM

